                                         OFFICE OF INSPECTOR GENERAL
                                                                MEMORANDUM

DATE:          October 8, 2004

TO:            Chairman

FROM:          Office of Inspector General

SUBJECT:       Report on the Cable Operations & Licensing System (COALS) Security
               Survey

The Federal Communication Commission's (FCC) Office of Inspector General (OIG) is
charged with ensuring the security of the Commission's e-filing web applications and
systems. This survey examined the security of the Cable Operations & Licensing System
(COALS) web application.

The OIG has not previously reviewed the COALS web application security either in the
Web Presence Audit (01-AUD-01-10) or its follow-up (03-AUD-09-12). This review
served to assess the Commission’s efforts to address audit observations and
recommendations contained in this program area.

The objectives of this review are to: (1) review password and login security protocols for
the COALS application to insure unwanted entry attempts are denied; and, (2) to
determine if the current security measures comply with FCC Computer Security Program
Directive 1479.2 and OMB “E-Authentication Guidance for Federal Agencies”
Memorandum M-04-04.

Our survey disclosed several positive observations on COALS security. The report also
identified one finding. On August 31, 2004, we provided a draft report to the Office of
Managing Director (OMD) for review and comments. In its response dated September
29, 2004, OMD indicated concurrence with the finding. OMD outlined the corrective
action to be taken and a schedule for implementation of corrective action. We have
included a copy of the response in its entirety as Appendix B to this report.

If you have any questions, please contact Thomas Cline, Assistant Inspector General for
Audits or me at (202) 418-0470.

                                             H. Walker Feaster III
cc:    Chief, Media Bureau
       Managing Director
       AMD-PERM
